     Audit of NARA’s
    Classified Systems

OIG Audit Report No. 12-15


      July 23, 2012
Table of Contents


Executive Summary ........................................................................................ 3

Background ..................................................................................................... 5

Objectives, Scope, Methodology.................................................................... 6

Audit Results................................................................................................... 7

Appendix A – Acronyms and Abbreviations ............................................... 22

Appendix B – Management’s Response to the Report ................................ 23

Appendix C – Report Distribution List ........................................................ 24
                                                              OIG Audit Report No. 12-15


Executive Summary

The National Archives and Records Administration (NARA) Office of Inspector General
(OIG) completed an audit of the classified information systems at NARA. In accordance
with Federal requirements, NARA has developed policy to protect its classified systems.
NARA Directive 202 establishes the agency’s Classified Information Security Program.
Further, NARA Directive 804 establishes requirements for the operation, management,
and control of information systems. During this audit, we assessed whether NARA’s
classified information systems were properly managed and adequately secured.

Executive Order 13526, Classified National Security Information, dated December 29,
2009, directs the agency head or senior agency official to establish uniform procedures to
ensure the confidentiality, integrity, and availability of automated information systems.
This includes networks and telecommunications systems, that collect, create,
communicate, compute, disseminate, process, or store classified information.

Our audit found that the confidentiality and security of classified information is at risk.
Although NARA has developed classified information system policies in accordance with
Federal guidelines, the Office of Information Services personnel, system owners, and
designees responsible for ensuring the confidentiality, integrity, and availability of
NARA classified information systems have not consistently implemented these
requirements. Specifically, of the seven classified systems reviewed, only one has a
current authorization to operate. Further, NARA officials have not taken the appropriate
and sufficient steps to adequately manage their classified systems. Management
deficiencies identified include:

   •   Weaknesses recognized during annual security assessments were not always
       communicated and properly addressed;
   •   Plans of Actions and Milestones were not always maintained, updated, or
       reviewed, as required;
   •   Inventories of systems and components were not always updated and completed;
   •   Contingency Plans had not been developed and tested for all classified systems;
       and
   •   Continuous monitoring strategies had not been established or implemented.

As a result, the classified information NARA is entrusted with overseeing and securing is
not afforded the magnitude of protection required, placing undue risk on the overall
security of information at the highest classification levels. Without the proper oversight
and accountability to ensure implementation of NARA’s Classified Information Security
Program as it relates to classified information systems, NARA is hindered in its ability to
adequately identify and reduce the vulnerabilities and control failures associated with its
classified systems, which places the confidentiality and security of classified information
at risk. Although all risks cannot be avoided, the controls and processes identified in this
report are fundamental to the security of NARA’s classified information systems.
                                           Page 3
                       National Archives and Records Administration
                                                            OIG Audit Report No. 12-15



Due to security considerations, specific information regarding the locations and systems
reviewed have been omitted from this report and supplied to NARA officials separately.
This report contains 8 recommendations to assist the agency in strengthening the security
and control of its classified information systems.




                                        Page 4
                     National Archives and Records Administration
                                                                  OIG Audit Report No. 12-15


Background

As the Nation’s record keeper, NARA receives classified records in electronic and paper
formats, which are then processed and stored on various NARA classified systems.
These classified systems have specialized security needs and must be protected at a
higher level than unclassified systems in order to guard against unauthorized disclosure
as well as loss or modification. It is critical that NARA ensure the appropriate security
controls are applied to its classified systems or the safety of these systems and the
information contained on these systems are at risk. Recent events surrounding the
disclosure of U.S. Government documents by WikiLeaks have emphasized the need to
protect and secure our classified national security information systems.

In 2004, we conducted a similar audit of NARA’s classified Information Technology (IT)
systems 1. In this previous audit, we found NARA had not developed or implemented a
classified IT systems security program that included updated guidance pertaining to the
technical security of classified systems. NARA had also not created a complete classified
computer systems inventory listing. Consequently, numerous security weaknesses were
found in the classified system reviewed. Therefore, we recommended the Archivist
ensure that NARA classified systems were centrally managed by technically qualified
personnel by redesignating responsibility for those systems. We also recommended the
development of the NARA Classified IT Systems Security Program; the identification
and inventory of all NARA classified systems; and an initial certification and
accreditation (C&A) of these systems be completed. Management concurred and
completed each of these recommendations.

All NARA IT systems processing or storing classified information must be designed and
operated in a manner to protect the availability, integrity, and confidentiality of the
information. NARA Directive 202 provides the necessary guidance for the protection of
classified information before it is entered into an IT system, classified output that has
been generated from the system, and for the physical environment surrounding the
system. Further, NARA Directive 202 establishes the NARA Classified Information
Security Program and identifies the responsibilities of NARA officials and designated
personnel for the protection and control of classified national security information,
regardless of the media. Additional policies related to the operation, management or
control of information systems are contained in NARA Directive 804, Information
Technology Systems Security, and other Federal standards and directives, including the
Director of Central Intelligence Directive (DCID) 6/3, Protecting Sensitive
Compartmented Information within Information Systems for Sensitive Compartmented
Information (SCI) level systems.




1
 NARA OIG Report No. 04-10, “Assessment of the Controls and Security of NARA Classified Systems,”
March 31, 2004
                                          Page 5
                       National Archives and Records Administration
                                                            OIG Audit Report No. 12-15


Objectives, Scope, Methodology

The overall objective of this audit was to determine whether NARA’s classified systems
were properly managed and adequately secured. Specifically, we sought to determine
whether the security of NARA’s classified systems complied with Federal and NARA
security policies and guidelines.

To accomplish our objective, we reviewed NARA policies governing classified
information and systems and examined the security of seven classified systems at NARA.
We interviewed IT Security personnel, system owners, and system and security
personnel. Further, we obtained available classified system security documentation. We
compared the implementation of NARA’s Classified Information Security Program (as it
relates to Information Systems) to NARA policy and Federal requirements, specifically:
the Federal Information Security Management Act of 2002, (Public Law 107-347 Sec.
301); Executive Order 13526, Classified National Security Information; National Institute
of Standards and Technology (NIST) SP 800-37, Guide for Applying the Risk
Management Framework to Federal Information Systems; NIST SP 800-53,
Recommended Security Controls for Federal Information Systems and Organizations;
NIST SP 800-59, Guideline for Identifying an Information System as a National Security
System; and Director of Central Intelligence 6/3, Protecting Sensitive Compartmented
Information within Information Systems.

Our audit work was performed at Archives I and Archives II between February 2011 and
June 2012 (however, audit work was postponed at times due to limited staffing
resources). We conducted this performance audit in accordance with generally accepted
government auditing standards. Those standards require that we plan and perform the
audit to obtain sufficient, appropriate evidence to provide a reasonable basis for our
findings and conclusions based on our audit objectives. We believe that the evidence
obtained provides a reasonable basis for our findings and conclusions based on our audit
objectives.




                                        Page 6
                     National Archives and Records Administration
                                                              OIG Audit Report No. 12-15


Audit Results

1. Implementation of Risk Management Framework on NARA’s
Classified Information Systems
Although NARA has developed classified information system policies in accordance with
Federal guidelines, the Office of Information Services personnel, system owners, and
designees responsible for ensuring the confidentiality, integrity, and availability of
NARA classified systems have not consistently implemented these requirements.
Specifically, this is apparent in the classified systems risk management process. Of the
seven systems reviewed, only one has a current authorization to operate. This condition
exists because required coordination efforts between Information Security personnel,
system owners, and authorizing officials were not conducted and authorization packages
were not appropriately completed or updated. As a result, NARA lacks assurance its
classified data and systems are secure from numerous threats and vulnerabilities.

NIST Special Publication 800-37, Guide for Applying the Risk Management Framework
to Federal Information Systems, includes guidelines for conducting the activities of
security categorization, security control selection and implementation, security control
assessment, information system authorization, and security control monitoring. Further,
NIST SP 800-37 identifies three key documents used in support of the risk management
process, these include: 1) security plans; 2) security assessment reports; and 3) plans of
actions and milestones. These documents are used by authorizing officials to make risk-
based decisions in the security authorization process for their information systems.

NIST SP 800-53, Recommended Security Controls for Federal Information Systems and
Organizations, provides additional guidance on risk management through the
implementation of security controls. These guidelines apply to all components of
information systems that process, store, or transmit Federal information, including
classified systems. NIST SP 800-53 states secure information systems require well-
defined security requirements and security specifications, as well as comprehensive
system security planning and life cycle management. These guidelines identify the
security plan as an important component of the process. NIST SP 800-53 defines the
security plan as the formal document providing an overview of the security requirements
for an information system, which describes the security controls in place or planned for
meeting those requirements.

NARA policy incorporates many of the NIST guidelines related to the risk management
of classified systems. Specifically, NARA IT Security Requirements, within the scope of
this audit, establishes requirements related to the security planning, risk assessment, and
                                         Page 7
                      National Archives and Records Administration
                                                             OIG Audit Report No. 12-15


security authorization. These requirements include the development and update of
system security plans, security assessment reports, and plans of actions and milestones.
Further, NARA policy requires the Office of Information Services to ensure information
systems are authorized to operate and the security authorizations are updated at least
annually.

Classified System Authorization Documentation

NARA has outlined procedures to meet the Authorization requirements of the Risk
Management Framework. Specifically, NARA IT Security Methodology for C&A and
Security Assessment describes the documentation and assessment results used by
NARA’s authorizing officials. These documents and reports, which are included in the
system authorization packages, provide essential information needed to make risk-based
decisions on whether to authorize operation of information systems or designated sets of
controls. The chart below provides an overview of the authorization package documents.

Figure 1. Key Authorization Package Documents




Security Plan. According to NARA’s C&A Methodology, the security plan is prepared
by the information system owner. The security plan provides an overview of the security
requirements and describes the security controls in place or plans for meeting those
requirements. The security plan also contains information related to risk assessments,
contingency planning, and the continuous monitoring strategy. NARA IT Security
Requirements stipulate classified system security plans must be reviewed and updated at
least annually.

The Office of IT Security provided security plans for each of the seven classified systems
reviewed during this audit. However, none had been updated within the last year in
accordance with NARA requirements. Most of the security plans reviewed had last been
approved over four years ago with no further indication of updates or revisions. Further,
a majority of the classified system security plans reviewed listed retired NARA personnel
in key security roles for the systems. In addition, a number of the security plans

                                        Page 8
                     National Archives and Records Administration
                                                               OIG Audit Report No. 12-15


identified important security controls that required strengthening. However, there is no
evidence such activities took place. The deficiencies identified relate to setting audit log
files to read only access, developing off-site backup storage requirements, auditing
system-level actions, and establishing appropriate access password controls.

Security Assessment Report. NARA’s C&A Methodology indicates the security
assessment report is prepared by the security control assessor. The security assessment
report provides the results of assessing the implementation of the security controls
identified in the security plan to determine the extent to which the controls are
implemented correctly, operating as intended, and producing the desired outcome with
respect to meeting the specified security requirements. NARA’s C&A Methodology
states the security assessment report is to be updated on an ongoing basis whenever
changes are made to the security controls employed within or inherited by the
information system.

Further, NARA IT Security Requirements state IT Security staff shall assess the security
controls in the information system at least annually. Updates to the security assessment
report help ensure the information system owner, common control provider, and
authorizing officials maintain the appropriate awareness with regard to security control
effectiveness. In addition, NARA policy requires security assessment reports to contain a
list of recommended corrective actions for any weaknesses or deficiencies identified in
the security controls.

The Office of IT Security provided security assessment reports for each of the classified
systems reviewed. All seven of the assessment reports were completed in September
2010. Updates were requested, however, IT Security personnel indicated the September
2010 security assessment reports were the most recent. Although seven assessment
reports were provided, one of the classified systems reviewed has four different instances,
each located at a different facility across the country. Despite the unique security
concerns of each location, only one security assessment was conducted for all four
instances, focusing on only one location. Further, the security assessment reports for the
seven classified systems identified a combined total of over 315 failures. A number of
these control failures were identified across all classified systems reviewed, these
systemic control failures involve:

   •   Response to Audit Processing Failures,
   •   Baseline Configuration,
   •   Configuration Settings,
   •   Least Functionality,
   •   Vulnerability Scanning, and
   •   Malicious Code Protection.

                                         Page 9
                      National Archives and Records Administration
                                                              OIG Audit Report No. 12-15


Further, 54 particular controls failed in three or more of the seven classified systems
reviewed. Despite these failures, recommended corrective actions were not typically
documented in the security assessment reports, as required. In addition, many of the
documents used in support of the security assessments—such as the system security plans
mentioned previously—have not been updated in the past three or four years, which
further degrades the accuracy of the assessments.

Plan of Action and Milestones (POA&M). NARA’s C&A Methodology assigns the
responsibility of preparing the POA&M to the system owner or common control
provider. The POA&Ms describe specific measures planned to correct weaknesses or
deficiencies in security controls identified during the security assessment and to address
known vulnerabilities in the information system. NARA IT Security Requirements state
the system owner shall update existing POA&Ms not less than annually based on the
findings from security controls assessments, security impact analyses, and continuous
monitoring activities.

The Office of IT Security provided POA&Ms for six of the seven classified systems
reviewed. Although each of the systems underwent a security assessment in September
2010, none of the POA&Ms were updated to reflect the more recent weaknesses
identified. Further, the POA&Ms provided listed nearly 90 weaknesses that are still
classified as “ongoing,” some of which date back to 2006. Examples of these ongoing
weaknesses include:

   •   Antivirus software/application not installed/updated;
   •   Need for Sensitive Compartmented Information Facility (SCIF) accreditation
       renewal;
   •   Inadequate labeling of hardware to reflect appropriate classification level;
   •   SCIF is not in accordance with Director of Central Intelligence Directive (DCID);
   •   Insecure/not properly retained audit logs;
   •   Inadequate review of audit logs;
   •   Uncleared personnel allowed to perform maintenance on classified system
       without being recorded on the maintenance log;
   •   Co-location of classified workstations with lower classified systems;
   •   System Security Plans not updated to reflect actual processes or state of system;
   •   Lack of data sanitizing procedures;
   •   Duties and responsibilities of the System Administrator had not been developed in
       accordance with DCID 6/3;
   •   Adequate password policies not implemented;
   •   Lack of configuration management policies; and
   •   Inadequate backup process.

                                         Page 10
                      National Archives and Records Administration
                                                               OIG Audit Report No. 12-15


Many of the POA&Ms reviewed state “keeping the documentation current is a simple
process and is well worth the minimal effort and cost in the long-run.” However, this
“minimal effort” to reduce the risk of NARA’s classified systems is not consistently
performed. Further, a number of the weaknesses documented in the POA&Ms (and listed
above) remain as control failures in the most recent Security Assessments. When asked
why the documentation had not been updated or tracked, the Office of Information
Services indicated it is difficult to obtain required documentation from system owners
and despite establishing cutoff dates, system owners “file away the POA&Ms and do
nothing with them.”

Continuous Monitoring

As mentioned previously, according to NARA’s C&A Methodology, system security
plans document the continuous monitoring strategy for each system. Further, NARA IT
Security Requirements state for all data, the IT Security Staff must establish a continuous
monitoring strategy and implement a continuous monitoring program. This includes
ongoing security control assessments, annual reporting of the security state of the
information system, and for data deemed by the NARA system owner to require
additional integrity protection, NARA IT Security staff shall plan, schedule, and conduct
security assessments to ensure compliance with all vulnerability mitigation procedures.

Despite the requirements to include a continuous monitoring strategy within the classified
system security plan, none of the systems reviewed contained such information. Most of
the classified system security plans do not mention continuous monitoring, or generally
state “detection and/or monitoring tools are not required because [the classified system] is
a self-contained system with no external connectivity.” However, according to NIST
guidance, automated support tools are only one component of continuous monitoring.
The process also includes—among other monitoring activities—assessing the security
impacts on an information system resulting from planned and unplanned changes to the
hardware, software, firmware, or environment of operation—using people, processes, and
technologies.

NARA IT Security personnel stated most of NARA’s continuous monitoring processes
are being developed to work over the network, therefore, the classified systems—which
are standalone—will not benefit. IT Security personnel stated they are still struggling
with continuous monitoring of the unclassified systems, let alone classified systems.
However, NARA’s C&A Methodology states failure to maintain an effective continuous
monitoring program may be grounds for rescinding an authorization decision. Without
current classified system security information made available through continuous
monitoring, authorizing officials are limited in their ability to make risk-based decisions.




                                         Page 11
                      National Archives and Records Administration
                                                               OIG Audit Report No. 12-15


Authorization Status of NARA’s Classified Information Systems

The documentation used to support management’s risk assessments of classified systems
is incomplete, outdated, and inconsistent. The three key documents approving authorities
use in their assessments of the classified systems: System Security Plans, Security
Assessment Reports, and Plans of Actions and Milestones do not reflect the level of
detail or current information needed to justify approval. As a result, of the seven systems
reviewed, only one has been certified and authorized to operate. According to IT
Security personnel—for certain high confidentiality systems—NARA has had difficulty
in getting authorization feedback from the Central Intelligence Agency, which has
impaired the timely authorization of these systems. However, this does not account for
the incomplete and outdated authorization packages NARA is using. Complete and
acceptable packages should have been assembled, compiled, and submitted by the system
owner prior to the authorization decision.

NARA IT Requirements state that for all data, the NARA Office of Information Services
shall ensure the authorizing official authorizes the information system for processing
before commencing operations. DCID 6/3, Protecting Sensitive Compartmented
Information within Information Systems, provides similar authorization to operate
requirements for SCI systems. DCID 6/3 states if the designated approving authority
neither accredits the system, nor grants an interim approval to operate, then the requestor
must modify the system or its safeguards, and repeat the accreditation process until the
system is accredited, granted interim approval to operate, or disallowed to operate.
Despite these requirements, NARA classified systems continue to operate without current
authorizations. When asked if any of the classified systems were shut down, Office of IT
Security personnel stated NARA does not shut down systems, even if they do not have an
authorization to operate. This stance by the Office of IT Security weakens NARA’s
Classified Information Security Program by allowing systems to run without ensuring
compliance with all confidentiality and vulnerability mitigation procedures.

Implications of Inadequate Risk Management Framework Implementation

NARA has established policy to protect classified systems from the elevated risks
associated with such systems, yet classified systems continue to operate without meeting
the security requirements established to ensure confidentiality, integrity, and availability.
As a result—in the current environment in which agencies are on heightened alert over
recent classified system breaches—NARA lacks assurance its classified data and systems
are secure and controls are in place and effective in protecting classified data against
threats and vulnerabilities.




                                         Page 12
                      National Archives and Records Administration
                                                          OIG Audit Report No. 12-15


Recommendations

We recommend the Executive for Information Services/Chief Information Officer (I), in
coordination with the Chief Operating Officer (C):

   1. Ensure all classified system authorization packages are updated in accordance
      with NARA policy;
   2. Establish a timeline for review and approval of authorization documents;
   3. Develop a continuous monitoring strategy for classified systems requiring system
      owners on at least a quarterly basis to assess security controls and inform
      authorizing officials when changes occur that may impact the security of the
      system; and
   4. Obtain authorizations to operate for each of the classified systems or disallow
      them in accordance with NARA and Federal policy.

Management Response

Management concurred with the recommendations.




                                       Page 13
                    National Archives and Records Administration
                                                               OIG Audit Report No. 12-15


2. Oversight and Security Control of NARA’s Classified Information
Security Program
NARA IT officials and designated personnel at all levels are not meeting their
responsibilities in the oversight, protection, and control of classified information systems
in accordance with NARA’s Classified Information Security Program. This is due to a
general lack of accountability and coordination by the Office of Information Services,
system owners, and security and system personnel—specifically in terms of
accomplishing classified information system security requirements. As a result, NARA
is hindered in its ability to adequately identify and reduce the vulnerabilities and control
failures associated with its classified systems, which places the confidentiality and
security of classified information at risk.

The Federal Information Security Management Act of 2002 (FISMA) requires each
agency to develop, document, and implement an agencywide information security
program. The program is to provide information security for the information and
information systems supporting the operations and assets of the agency, including those
provided or managed by another agency, contractor, or other source. Further, FISMA
requires the information security program to include periodic assessments of the risk and
magnitude of the harm that could result from the unauthorized access, use, disclosure,
disruption, modification, or destruction of information and information systems that
support the operations and assets of the agency, including classified systems.

Within the scope of classified information systems and security, NARA has issued two
primary Directives. The first of these, NARA Directive 202, NARA Classified
Information Security Program, establishes NARA’s Classified Information Security
Program and identifies the responsibilities of NARA officials and designated personnel in
the protection and control of classified national security information. In addition, NARA
Directive 202 is supplemented by the NARA Classified Information Security Program
Handbook. The purpose of the handbook is to serve as a “how to” guide for the NARA
Information Security Officer and Information Security Program Managers to use in
promoting a viable and dynamic classified information security program.

The second Directive, NARA 804, Information Technology Systems Security, establishes
policy and guidance for securing all electronic information collected or maintained by or
on behalf of NARA, and the electronic information systems used or operated by or on
behalf of NARA. NARA 804 defines the role of IT security in the context of an overall
enterprise architecture. In addition, the Directive delineates the security management
program structure, assigns responsibilities, and creates a foundation to manage progress
and compliance.

                                         Page 14
                      National Archives and Records Administration
                                                               OIG Audit Report No. 12-15


Classified Information Security Program Responsibilities

NARA’s policy outlines Classified Information Security Program roles and
responsibilities starting at the head of the agency and ending at the final user of the
information. The Archivist is responsible for committing senior management and
resources to the successful implementation of the program. Other key roles—within the
scope of this audit—include the Chief Information Officer, Chief Information Security
Officer, IT Security Staff, System Owner, Information System Security Officer, and
Information Security Program Manager. The responsibilities of these roles as they relate
to classified information system security are outlined below:

Chief Information Officer (CIO). The CIO ensures development and implementation of
the NARA IT Security program and NARA IT security architecture conform to all
NARA and other Federal standards, policies, and guidelines. The CIO is the designated
authorizing official for agency-wide general support systems and is the co-authorizing
official with other senior officials for selected agency information systems. The CIO
designates the senior agency information security officer.

Chief Information Security Officer (CISO). The CISO is the senior agency information
security officer responsible for the implementation of NARA 804 and its policies. The
CISO directs the NARA IT Security Program with the mission and resources to assist in
ensuring agency compliance with FISMA. Further, the CISO is the agency official
responsible for carrying out the chief information officer responsibilities under FISMA.

IT Security Staff. The IT Security staff plans and manages the IT Security program in
conformance with the IT Security Architecture. The staff assists in the development of
the security architecture, assures the appropriate integration of security controls as part of
the systems engineering process, and provides guidance and assistance to systems owners
on matters of IT security.

System Owner. The system owner is the official responsible for the procurement,
development, and operation and maintenance of the system. Further, the system owner is
responsible for developing and submitting the authorization package. System owners
also evaluate the cost and benefits of system features, including the security costs of
mitigating vulnerabilities associated with the system. In addition, system owners identify
or designate responsibility for the Information Systems Security Officer.

Information Systems Security Officer (ISSO). The ISSO has the responsibility to ensure
the appropriate operational security posture is maintained for an IT system or program.
The ISSO assists in determining the security controls appropriate for the system, and
provides information necessary to complete regular assessments of the system and the
POA&M, which tracks response to internal and external audit findings.
                                         Page 15
                      National Archives and Records Administration
                                                                  OIG Audit Report No. 12-15



Information Security Program Manager (ISPM). The ISPM develops standard operating
procedures addressing information security requirements specific to the activity for which
they are responsible. In addition, the ISPM assists the ISSO, in coordination with the
system owner, as necessary to develop SSPs, risk assessments, contingency plans, obtain
certification and accreditation of all classified computer systems, and report computer-
related security incidents for all computer systems under the control of their activity.

Based on the roles listed above, NARA has developed multiple levels of oversight in its
governance of the security and management of classified information systems. However,
despite these oversight and management roles, a number of Classified Information
Security Program objectives and requirements remain unmet. The following section
describes some of the management and implementation deficiencies identified in
NARA’s Classified Information Security Program as it relates to classified information
systems.

Implementation of NARA’s Classified Information Security Program

A basic requirement in implementing a Classified Information Security Program involves
establishing and maintaining a current inventory of classified systems. However, during
our tours of the Sensitive Compartmented Information Facilities (SCIFs) and a review of
NARA’s 2011 Performance and Accountability Report, we identified additional
classified systems not reflected in the inventory list provided by the Office of Information
Services. Further, a number of the systems included in the inventory were considered to
be inactive or decommissioned. An OIG audit conducted in 2004 identified similar
inadequacies pertaining to NARA’s classified system inventory 2.

Further, NARA policy establishes requirements pertaining to information system
component inventory. NARA IT Security Requirements state for all data, the system
owner shall develop, document, and maintain an inventory of information system
components that accurately reflects the current information system. In addition, for data
requiring greater integrity, the system owner shall verify all components within the
authorization boundary of the information system are either inventoried as a part of the
system or recognized by another system as a component within that system. During our
tour of classified facilities, we noted items within the classified system boundaries that
were not included in the component inventory list. These items included printers, toggle
switches, and a smart uninterruptible power supply backup.


2
 NARA OIG Report No. 04-10, “Assessment of the Controls and Security of NARA Classified Systems,”
March 31, 2004
                                          Page 16
                       National Archives and Records Administration
                                                              OIG Audit Report No. 12-15


Another component of the Classified Information Security Program involves obtaining
authorization for the classified systems to operate (see Finding 1). NARA policy states it
is the responsibility of the system owner to assemble, compile, and submit the
authorization package. In addition, as noted above, it is also the responsibility of the IT
Security staff, ISSO, and ISPM to aid the system owner in this process. Therefore, in
order for the authorization to take place, each classified system must have an appointed
system owner who works in coordination with IT Security staff and designated system
and security personnel.

The Office of IT Security provided the most recent system owner appointment letters for
the classified systems reviewed. Most of the letters were last signed in mid-2009. At
least one these appointed system owners no longer works at NARA. Two other system
owners listed on appointment letters do not match those named in more recent system
documentation. Further, one person who was appointed system owner to four classified
systems had relinquished these duties as a result of NARA’s reorganization. At the time
of this audit, new system owners had not been appointed.

Due to the important role system owners play in the security of classified systems, it is
vital that the appointments remain accurate and the system owners acknowledge their
responsibilities. Up-to-date appointment letters facilitate this acknowledgement by
requiring the system owners to sign and date the letter which outlines their
responsibilities. Some of the acknowledged responsibilities listed on the appointment
letters provided include:

   •   Ensuring security requirements for the system will be met;
   •   Assigning, in writing, an ISSO;
   •   Informing the Office of IT Security of the need to conduct a certification and
       accreditation of the system; and
   •   Ensuring adequate resources are available for the certification and accreditation
       effort.

Despite these acknowledged requirements, six out of the seven System Security Plans—
which are required to provide overviews of the security requirements and security
controls in place for each of the systems—have not been updated in over three years.
Additionally, of the seven systems reviewed, the Office of IT Security was only able to
provide signed ISSO appointment letters for four systems. Further, only one of the seven
classified systems had a current certification and accreditation.

In addition to the responsibilities listed above, the system owner appointment letters state
the system owners may delegate day-to-day authority, as applicable, to an ISSO to


                                         Page 17
                      National Archives and Records Administration
                                                            OIG Audit Report No. 12-15


perform a number of security duties. Examples of these duties include:

   •   Providing and maintaining all documentation as required for the certification and
       accreditation process and retaining the results from the Office of IT Security;
   •   Taking appropriate steps to reduce or eliminate vulnerabilities;
   •   Ensuring the development and annual update of the system security plan;
   •   Deploying and operating the system according to the security requirements in the
       system security plan;
   •   Providing the continuous monitoring of the information system;
   •   Coordinating the development of a Contingency Plan and ensuring the plan is
       tested and maintained annually;
   •   Establishing system-level POA&Ms and implementing corrective actions to
       develop, implement, manage, and track these actions; and
   •   Working closely with the Office of IT Security and other IT managers to ensure a
       complete understanding of the risk.

Despite the listing of these duties on the system owner and ISSO appointment letters,
most were not accomplished for the systems reviewed. For example, system personnel
were unable to provide requested certification and accreditation documents. Further,
efforts to address ongoing vulnerabilities have been lacking, some POA&Ms with
identified deficiencies have not been updated in the past four years. Additionally, IT
Security staff indicated continuous monitoring efforts of classified systems have been
minimal.

The appointment letters also include duties involving contingency planning. NARA IT
Security Requirements establishes system owners must develop contingency plans for all
information systems. System owners are required to review the plans at least annually.
Further, the contingency plans are required to be reviewed and approved by NARA
Security staff.

IT Security personnel were able to provide updated contingency plans for five of the
seven classified systems reviewed. However, none of the contingency plans showed
evidence of NARA Security staff review or approval, as required. In addition, five of the
seven Security Assessment Reports associated with these systems identified contingency
planning failures. Further, a number of issues were identified in the contingency plans
provided, some of which include:

   •   System owner designation that differs from appointment letter;
   •   Incomplete key personnel contact lists;




                                        Page 18
                     National Archives and Records Administration
                                                              OIG Audit Report No. 12-15


   •   Contingency plan responsibilities assigned to a position that is vacant or
       unidentified; and
   •   Incomplete records documenting changes to the contingency plan.

For classified systems requiring moderate or high availability, NARA IT Security
Requirements stipulate the NARA system owner shall plan for the resumption of essential
missions and business functions within 24 hours for classified information systems of
contingency plan activation. Further, the NARA system owner shall plan for the full
resumption of missions and business functions within 5 days of contingency plan
activation. According to the system documentation provided, two of the seven systems
reviewed required elevated levels of availability. However, of these two classified
systems, neither had contingency plans or test plans reflecting this heightened availability
level.

NARA IT Security Requirements state the system owner or ISSO shall test or exercise the
contingency plan at least annually to determine the plan’s effectiveness, as well as the
system owner or ISSO’s readiness to execute the plan. Further, for classified systems,
system owners are required to conduct backups of user-level and system-level
information contained in the information system at least weekly. IT Security Personnel
were able to provide test plans for five of the seven classified systems reviewed. Despite
the annual requirement, only four of the classified system contingency test plans were
updated in the past year. Of those four, only one contained complete and detailed results.
Further, Security Assessment Reports identified failures related to system backups in four
of the seven classified systems reviewed.

Another duty listed on the appointment letters involves working closely with the Office
of IT Security and other IT managers to ensure a complete understanding of the risk.
This is further detailed in NARA 804, which identifies providing guidance and assistance
to system owners as one of the roles of IT Security staff.

During our audit interviews, system owners, ISSOs, and designees were asked about
system documentation efforts and status. Interviewees were often unaware of the status
of the key oversight and security documents for their respective systems. Further, despite
being responsible for maintaining certification and accreditation documents, the
interviewees were often unable to provide copies. The IT Security staff responsible for
assisting system owners stated most of the classified system owners do not have an IT
background. As a result, IT Security staff indicated system owners face difficulties in
meeting their more technical responsibilities.

Conversely, some system owners mentioned they did not always receive adequate
feedback from the Office of IT Security during the authorization process. Examples
included providing the Office of IT Security with updates to documents without ever
                                         Page 19
                      National Archives and Records Administration
                                                             OIG Audit Report No. 12-15


hearing back from them and not obtaining results of security assessments performed by
the Office of IT Security. Further, discrepancies existed between systems owners and the
Office of IT Security regarding responsibility for implementing corrective actions. The
chart below (Figure 2) depicts the status of key system documents for the seven classified
systems reviewed.

Figure 2. Status of Key System Documents

               Authorized      Updated                      Updated     Adequate
                                             Complete
  System           to          Security                    Contingency Contingency
                                             POA&M?
                Operate?        Plan?                        Plan?      Plan Test?
Classified
                   No             No             No             No              No
System #1
Classified
                   No             No             No             Yes             No
System #2
Classified
                   No             No             No             Yes             No
System #3
Classified
                   No             No             No             Yes             No
System #4
Classified
                   No             No             No             Yes             No
System #5
Classified
                   Yes            No             No             Yes            Yes
System #6
Classified
                   No             No             No             No              No
System #7


NARA policy establishes roles and responsibilities to ensure IT Security Staff, systems
owners, ISSOs, and ISPM assist one another in completing system security
documentation used in the certification and accreditation, contingency planning, and
security efforts of each classified system. The status of the documents listed above
illustrates a need for greater accountability and coordination in the implementation of
NARA’s Classified Information Security Program as it relates to classified information
systems. The Office of IT Security acknowledged the security documentation for
classified systems were not kept up-to-date. Difficulty in obtaining documentation from
system owners was cited as the main factor in the lack of current security documentation.

Implications of Inadequate Oversight and Security Control of Classified Systems

Although NARA policy establishes responsibility for the CIO and CISO to implement
NARA’s IT Security program and NARA Directive 804 requirements, numerous
inadequacies identified in our review of NARA’s classified information systems indicate
this responsibility is not being fulfilled. Specifically, NARA classified systems are not
appropriately authorized, system security documentation is not complete, and key system

                                        Page 20
                     National Archives and Records Administration
                                                             OIG Audit Report No. 12-15


and security personnel have not been appointed to support these efforts, as required.
Without the proper oversight and accountability to ensure implementation of NARA’s
Classified Information Security Program as relates to classified information systems,
NARA is hindered in its ability to adequately identify and reduce the vulnerabilities and
control failures associated with its classified systems, which places the confidentiality
and security of classified information at risk.

Recommendations

We recommend the Executive for Information Services/Chief Information Officer (I), in
coordination with the Chief Operating Officer (C):

   5. Re-evaluate responsibilities among IT Security staff, system owners, ISSOs, and
      ISPMs to ensure they match the required expertise within each role;
   6. Ensure that IT officials, system owners, and system and security personnel are
      aware of their classified system oversight roles and responsibilities;
   7. Maintain current documentation to support each system has an appointed system
      owner and ISSO; and
   8. Ensure all contingency plans are updated, completed, reviewed, and tested in
      accordance with NARA policy.

Management Response

Management concurred with the recommendations.




                                        Page 21
                     National Archives and Records Administration
                                                   OIG Audit Report No. 12-15


Appendix A – Acronyms and Abbreviations

C&A     Certification and Accreditation
DCID    Director of Central Intelligence Directive
ISSO    Information System Security Officer
IT      Information Technology
NARA    National Archives and Records Administration
OIG     Office of Inspector General
POA&M   Plan of Actions and Milestones
SCI     Sensitive Compartmented Information
TS      Top Secret




                                 Page 22
              National Archives and Records Administration
                                                 OIG Audit Report No. 12-15


Appendix B - Management’s Response to the Report




                               Page 23
            National Archives and Records Administration
                                                          OIG Audit Report No. 12-15


Appendix C - Report Distribution List

David S. Ferriero, Archivist of the United States (N)
Tom Mills, Chief Operating Officer (C)
Michael Wash, Executive for Information Services and Chief Information Officer (I)
Mary Drak, Performance and Accountability Staff (CP)




                                       Page 24
                    National Archives and Records Administration
